TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       The Business Systems Development
                       Organization Effectively Managed Its
                          Contractors and Related Costs



                                            March 2006

                              Reference Number: 2006-20-059




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 March 31, 2006


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – The Business Systems Development Organization
                               Effectively Managed Its Contractors and Related Costs
                               (Audit # 200520021)

 This report presents the results of our review of the Business Systems Development (BSD)
 organization’s controls over contract labor and related costs. The overall objective of this review
 was to determine whether the BSD organization had implemented effective controls to manage
 its contract labor and related costs.

 Synopsis
 The BSD organization within the Modernization and Information Technology Services
 organization is responsible for defining, building, testing, delivering, and maintaining integrated
 information applications systems that help achieve the business vision and objectives of the
 Internal Revenue Service (IRS). To accomplish these responsibilities, the BSD organization
 relies heavily on contractor support. The BSD organization budgeted $144 million in Fiscal
 Year 2005 for contractor support. This represents 39 percent of the BSD organization’s total
 Fiscal Year 2005 budget of about $370 million. The types of support provided by the contractors
 include management and professional support and data processing services.
 Our review of the Integrated Submission and Remittance Processing (ISRP) system,1 the Service
 Center Recognition/Image Processing System (SCRIPS),2 and the Product Assurance Technical


 1
   The ISRP system transcribes and formats data from paper documents such as tax returns for input into other IRS
 systems by key-entry operators. It also captures check images for archiving.
 2
   The SCRIPS performs data capture by reading the printed bar codes if present or character recognition of data
 printed on certain IRS tax forms.
                      The Business Systems Development Organization Effectively
                              Managed Its Contractors and Related Costs



Support for Systems Acceptability Testing/Final Integration Test (SAT/FIT)3 projects
determined the BSD organization is effectively monitoring its contractors’ performance and
verifying related costs through the efforts of the Contracting Officer’s Technical Representative
(COTR) and Project Office personnel. For example, to
monitor the contractors’ progress in completing the task               The BSD organization is
orders,4 the COTRs and/or Project Office representatives              effectively monitoring its
attended various meetings and periodically met with the             contractors’ performance and
                                                                    verifying related costs. Also,
contractors. The COTRs for the three projects also reviewed        the invoices we reviewed were
status reports prepared by the contractors. In addition, to             appropriately funded.
track and validate the SAT/FIT project’s costs, the COTR
compared the invoice5 charges for travel costs against supporting travel receipts and, on a
random basis, compared labor costs to timecards or timesheets. The ISRP system and SCRIPS
projects were worked under a firm fixed-price contract,6 and the costs were negotiated prior to
the beginning of work. Therefore, an indepth review of the invoices by the COTRs was not
required.
We also determined the 18 invoices we reviewed were appropriately funded using the
Information Systems Fund or the Business Systems Modernization Fund. Business Systems
Modernization funds were used for the SAT/FIT testing of two Business Systems Modernization
projects.
In addition, we contacted IRS users of the systems reviewed to determine whether the goods and
services provided by the contractors adequately met the business needs and were completed
timely. The SCRIPS and SAT/FIT projects users stated the goods and services met the business
needs and were completed timely. The ISRP system users reported problems with the Training
On-Line Grader, which is a program used for training and testing potential employees. The users
stated the upgrades for 2005 and 2006 did not perform as intended. Due to the deficiencies of
the 2005 system upgrade, the IRS incurred 644 hours of overtime totaling approximately
$10,798. BSD organization management explained the IRS received late legislative changes


3
  The SAT is the process of testing a system or program to ensure it meets the original objectives outlined by the
user in the requirement analysis document. The purpose of the FIT is to validate whether the tax processing system
released to production each January operates with existing systems correctly, thus ensuring the IRS is ready for the
new filing season. The filing season is the period from January through mid-April when most individual income tax
returns are filed.
4
  A task order is an order for services placed against an established contract or with Federal Government sources of
supply.
5
  An invoice is an itemized bill listing the cost of goods shipped or services rendered. One invoice may include the
costs for more than one task order.
6
  A firm fixed-price contract provides for a price that is not subject to any adjustment on the basis of the contractor’s
cost experience in performing the contract. This contract type places upon the contractor maximum risk and full
responsibility for all costs and resulting profit or loss. It provides maximum incentive for the contractor to control
costs and perform effectively.
                                                                                                                        2
                  The Business Systems Development Organization Effectively
                          Managed Its Contractors and Related Costs



affecting the tax processing year. Therefore, the contractor was instructed to complete the
legislative changes in the production system before completing the Training On-Line Grader
corrections. On January 13, 2006, BSD organization management reported all Training On-Line
Grader problems for 2005 have been corrected. The Office of Procurement stated the contractor
met the terms of the contract. Therefore, the IRS will not take action to recover the $10,798 in
overtime. On January 31, 2006, IRS management advised that, for 2006, the Training On-Line
Grader was operating as planned and two minor outstanding problems would be corrected next
year.

Recommendations
Because the BSD organization effectively monitored contractor performance and managed
contract labor and related costs on the projects we reviewed, we made no recommendations in
this report.

Response
Management agreed with the report and stated they were pleased that after reviewing the three
projects it was determined the BSD organization is effectively monitoring its contractors’
performance and verifying related costs through the efforts of the COTRs and Project Office
personnel. Management’s complete response to the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report finding.
Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
Inspector General for Audit (Information Systems Programs), at (202) 622-8510.




                                                                                                3
                        The Business Systems Development Organization Effectively
                                Managed Its Contractors and Related Costs




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Controls to Ensure Acceptable Contractor Performance and
          Validate Related Costs Were Effective.........................................................Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 6
          Appendix II – Major Contributors to This Report ........................................Page 8
          Appendix III – Report Distribution List .......................................................Page 9
          Appendix IV – Management’s Response to the Draft Report .....................Page 10
                       The Business Systems Development Organization Effectively
                               Managed Its Contractors and Related Costs




                                              Background

One of the strategic goals in the Internal Revenue Service (IRS) Strategic Plan for Fiscal
Years (FY) 2005 – 2009 is to modernize the IRS through its people, processes, and technology.
The Business Systems Development (BSD) organization within the Modernization and
Information Technology Services organization is responsible for defining, building, testing,
delivering, and maintaining integrated information applications systems that help achieve the
business vision and objectives of the IRS. To accomplish these responsibilities, the BSD
organization relies heavily on contractor support. The BSD organization budgeted $144 million
in FY 2005 for contractor support. This represents 39 percent of the BSD organization’s total
FY 2005 budget of about $370 million (see Figure 1).
                        Figure 1: The BSD Organization’s FY 2005 Budget

                                  Total FY 2005 Budget $369,518,448


                       Budget for
                       Non-Contract
                                                                           Budget for
                       Services,
                                                                           Contract
                       $225,194,278
                                                                           Services,
                       61%
                                                                           $144,324,170
                                                                           39%



               Source: The Treasury Inspector General for Tax Administration’s analysis of an
               extract of the BSD organization budget from the Integrated Financial System.1

The types of support provided by the contractors include management and professional support
and data processing services. The management and professional support services include
assistance, advice, or training for the efficient and effective management and operation of
organizations, activities, or systems. The data processing services represent the direct
operational costs of Federal Government-owned systems operated and maintained on contract by
organizations other than the IRS. These costs include the use of computers and programming
services, database services, transcription, testing time, and related clerical operations.



1
    The Integrated Financial System is an administrative accounting system used by the IRS.
                                                                                                Page 1
                 The Business Systems Development Organization Effectively
                         Managed Its Contractors and Related Costs



When we initiated this review, the BSD organization consisted of seven subordinate divisions.
However, by the end of 2005, the Modernization and Information Technology Services
organization planned to combine the BSD and Business Systems Modernization organizations to
create one applications development organization to eliminate gaps and overlaps that exist
throughout the development cycle.
This review was performed at the BSD office in New Carrollton, Maryland, during the period
July 2005 through January 2006. The audit was conducted in accordance with Government
Auditing Standards. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                       Page 2
                      The Business Systems Development Organization Effectively
                              Managed Its Contractors and Related Costs




                                        Results of Review

Controls to Ensure Acceptable Contractor Performance and Validate
Related Costs Were Effective
The Federal Acquisition Regulation holds contractors responsible for timely contract
performance; however, the Federal Government is held responsible for monitoring contractor
performance as necessary to protect its interest. Monitoring involves comparing a contractor’s
performance plans, schedules, controls, and industrial processes against the contractor’s actual
performance under them; determining the contractor’s progress; and identifying any factors that
may delay performance. In addition, the Office of Federal Procurement Policy A Guide To Best
Practices For Contract Administration, dated October 1994, states the Contracting Officer’s
Technical Representatives (COTR) should perform periodic head counts, examine timecards and
sign-in sheets, review the overtime, and maintain spreadsheets to track direct costs and expenses
for cost-reimbursement contracts.2
The BSD organization provided a list of projects requiring contractor support for FYs 2005
and 2006. The types of contracts and task orders3 used to acquire contractor support were firm
fixed-price4 or cost-reimbursement. We judgmentally selected the following three projects for
review:
    •    Integrated Submission and Remittance Processing (ISRP) system – transcribes and
         formats data from paper documents such as tax returns for input into other IRS systems
         by key-entry operators. It also captures check images for archiving. We reviewed
         11 task orders and 6 invoices5 for this project.
    •    Service Center Recognition/Image Processing System (SCRIPS) – performs data capture
         by reading the printed bar codes if present or character recognition of data printed on
         certain IRS tax forms. We reviewed three task orders and six invoices for this project.

2
  Cost-reimbursement types of contracts provide for payment of allowable incurred costs, to the extent prescribed in
the contract. These contracts establish an estimate of total cost and a ceiling the contractor may not exceed (except
at its own risk) without the approval of the Contracting Officer.
3
  A task order is an order for services placed against an established contract or with Federal Government sources of
supply.
4
  A firm fixed-price contract provides for a price that is not subject to any adjustment on the basis of the contractor’s
cost experience in performing the contract. This contract type places upon the contractor maximum risk and full
responsibility for all costs and resulting profit or loss. It provides maximum incentive for the contractor to control
costs and perform effectively.
5
  An invoice is an itemized bill listing the cost of goods shipped or services rendered. One invoice may include the
costs for more than one task order.
                                                                                                                 Page 3
                       The Business Systems Development Organization Effectively
                               Managed Its Contractors and Related Costs



      •    Product Assurance Technical Support for Systems Acceptability Testing/Final Integration
           Test (SAT/FIT) – The SAT is the process of testing a system or program to ensure it
           meets the original objectives outlined by the user in the requirement analysis document.
           The purpose of the FIT is to validate whether the tax processing system released to
           production each January operates with existing systems correctly, thus ensuring the IRS
           is ready for the new filing season.6 We reviewed two task orders and six invoices for this
           project.
Our review of the three projects determined the BSD organization is effectively monitoring its
contractors’ performance and verifying related costs through the efforts of the COTRs and
Project Office personnel. For example, to monitor the contractors’ progress in completing the
task orders, the COTRs and/or Project Office representatives periodically met with the
contractors and attended various meetings such as biweekly or monthly program management
meetings and control configuration board meetings. The COTRs for the three projects also
reviewed status reports prepared by the contractors.
In addition, the SAT/FIT cost-reimbursement task orders require project costs to be tracked and
validated. To validate the project costs, the SAT/FIT COTR
compared the invoice charges for travel costs against supporting
travel receipts and, on a random basis, compared labor costs to      The BSD organization is
                                                                    effectively monitoring its
timecards or timesheets. The ISRP system and SCRIPS projects        contractors’ performance
were worked under a firm fixed-price contract, and the costs          and verifying related
were negotiated prior to the beginning of work. Therefore, an       costs. Also, the invoices
indepth review of the invoices by the COTRs was not required.           we reviewed were
                                                                                      appropriately funded.
Although each SAT/FIT task order lists the contract work by
projects, the invoices do not group the charges by projects. This
made it difficult for the COTR to determine whether an individual project was operating within
its budget. Prior to our review, the COTR submitted to the Office of Procurement a revised
format for future invoices that will include the information needed to adequately account for the
expenses for each SAT/FIT project. To ensure future SAT/FIT invoices provide the data in a
usable format, the COTR reported to BSD organization management that the request to have
expenses grouped by project in the SAT/FIT invoices will be included as a requirement in the
next SAT/FIT contract.
In addition, we determined the 18 invoices we reviewed were appropriately funded using the
Information Systems Fund or the Business Systems Modernization Fund. Business Systems
Modernization funds were used for the SAT/FIT testing of two Business Systems Modernization
projects.



6
    The period from January through mid-April when most individual income tax returns are filed.
                                                                                                        Page 4
                 The Business Systems Development Organization Effectively
                         Managed Its Contractors and Related Costs



Also, we contacted IRS users of the systems reviewed to determine whether the goods and
services provided by the contractors adequately met the business needs and were completed
timely. The SCRIPS and SAT/FIT projects users stated the goods and services met the business
needs and were completed timely. The ISRP system users reported problems with the Training
On-Line Grader, which is a program used for training and testing potential employees. The users
stated the upgrades for 2005 and 2006 did not perform as intended. Due to the deficiencies of
the 2005 system upgrade, the IRS incurred 644 hours of overtime totaling approximately
$10,798. BSD organization management explained that, when the contractor began correcting
the Training On-Line Grader problems, the IRS received late legislative changes affecting the tax
processing year. Therefore, the contractor was instructed to complete the legislative changes in
the production system before completing the Training On-Line Grader corrections. On
January 13, 2006, BSD organization management reported all Training On-Line Grader
problems for 2005 had been corrected. The Office of Procurement stated the contractor met the
terms of the contract. Therefore, the IRS will not take action to recover the $10,798 in overtime.
On January 31, 2006, IRS management advised that, for 2006, the Training On-Line Grader was
operating as planned and two minor outstanding problems would be corrected next year.
By implementing effective controls, the BSD organization ensures contractors for the ISRP
system, SCRIPS, and SAT/FIT projects perform as expected and costs are properly supported.
Because the BSD organization effectively monitored contractor performance and managed
contract labor and related costs, we are making no recommendations in this report.




                                                                                           Page 5
                     The Business Systems Development Organization Effectively
                             Managed Its Contractors and Related Costs



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Business Systems
Development (BSD) organization had implemented effective controls to manage its contract
labor and related costs. To accomplish this objective, we:
I.       Determined the amounts budgeted and expended by the BSD organization to fund
         contractor support for Fiscal Years (FY) 2005 and 2006. We received the contractor
         support budget and expenditures from the BSD organization but received only the budget
         for the Integrated Financial System.1 We determined whether expenses on the
         18 invoices2 selected in subobjective II were charged to the appropriate funds.
II.      Determined the inventory of BSD organization projects for FY 2005 that required
         contractor support and selected a judgmental sample of projects for review in
         subobjective III to assess the BSD organization’s effectiveness in managing contractors’
         and related costs. A judgmental sample was selected because the results would not be
         projected over the entire population. We prioritized by dollar amount the list of
         50 FY 2005 BSD organization projects that required contractor support. We selected the
         three projects with the highest budgets, excluding projects that we had included in other
         current or prior audits, and reviewed all associated task orders3 requesting contractor
         work to be performed in FY 2005. We reviewed the following 3 projects, which had a
         total of 16 task orders:
         •   Integrated Submission and Remittance Processing system – transcribes and formats
             data from paper documents such as tax returns for input into other Internal Revenue
             Service (IRS) systems by key-entry operators. It also captures check images for
             archiving. We reviewed 11 task orders and 6 invoices for this project.
         •   Service Center Recognition/Image Processing System – performs data capture by
             reading the printed bar codes if present or character recognition of data printed on
             certain IRS tax forms. We reviewed three task orders and six invoices for this
             project.



1
  The Integrated Financial System is an administrative accounting system used by the Internal Revenue Service.
2
  An invoice is an itemized bill listing the cost of goods shipped or services rendered. One invoice may include the
costs for more than one task order.
3
  A task order is an order for services placed against an established contract or with Federal Government sources of
supply.
                                                                                                             Page 6
                       The Business Systems Development Organization Effectively
                               Managed Its Contractors and Related Costs



           •   Product Assurance Technical Support for Systems Acceptability Tests/Final
               Integration Test (SAT/FIT) – The SAT is the process of testing a system or program
               to ensure it meets the original objectives outlined by the user in the requirement
               analysis document. The purpose of the FIT is to validate whether the tax processing
               system released to production each January operates with existing systems correctly,
               thus ensuring the IRS is ready for the new filing season.4 We reviewed two task
               orders and six invoices for this project.
           For subobjective I, we reviewed all the Integrated Submission and Remittance Processing
           system and Service Center Recognition/Image Processing System invoices that included
           charges for work completed in FY 2005. For the SAT/FIT project, we reviewed six
           invoices that included charges for work completed in FY 2005 (three invoices for each of
           the two SAT/FIT contractors) because the invoices had voluminous documentation.
III.       Determined whether the BSD organization’s policies and procedures were effective to
           ensure information technology goods and services were received, the deliverables
           provided by the vendor were of value and benefit to the IRS, and hours worked and travel
           costs claimed by the contractor were validated for each of the requisition/task orders in
           the sample. To accomplish this, we interviewed IRS personnel (e.g., project managers
           and Contracting Officer’s Technical Representatives) and reviewed task orders, invoices,
           status reports, and other documents used to monitor contractor performance. We
           contacted business unit management to determine whether the goods and services were
           completed timely and adequately met the business needs.
IV.        We used computer-based BSD organization budget data for background information and
           in generating a list of projects for review. We compared the list of projects generated
           from the BSD organization data to a list of projects generated from the Integrated
           Financial System data to determine the accuracy of data used during the audit. Both
           sources of information generated the same list of projects in the same ranking order based
           on the budget and cost of the project.




4
    The period from January through mid-April when most individual income tax returns are filed.
                                                                                                   Page 7
                 The Business Systems Development Organization Effectively
                         Managed Its Contractors and Related Costs



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary Hinkle, Director
Danny Verneuille, Audit Manager
Van Warmke, Acting Audit Manager
Tina Wong, Lead Auditor
Louis Zullo, Senior Auditor
Olivia DeBerry, Auditor
Kim McManis, Auditor
Linda Screws, Auditor




                                                                                         Page 8
                The Business Systems Development Organization Effectively
                        Managed Its Contractors and Related Costs



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief, Agency-Wide Shared Services OS:A
Deputy Chief Information Officer OS:CIO
Director, Procurement OS:A:P
Associate Chief Information Officer, Business Systems Development OS:CIO:BSD
Director, Stakeholder Management OS:CIO:SM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Chief, Agency-Wide Shared Services OS:A
       Director, Procurement OS:A:P
       Director, Program Oversight Office OS:CIO:SM:PO




                                                                               Page 9
    The Business Systems Development Organization Effectively
            Managed Its Contractors and Related Costs



                                                  Appendix IV

Management’s Response to the Draft Report




                                                         Page 10
